        PERFORMANCE AUDIT OF THE USPS NATIONAL CHANGE OF ADDRESS PROGRAM




A. Purpose and Background

The purpose of this review was to conduct an independent assessment of the full costs of
running the National Change of Address (NCOA) program, whether the USPS was
recovering costs, and what were the related benefits of the NCOA program.

The Postal Service estimates that approximately 17 percent of the nation’s population
moves each year. These moves result in approximately 2.7 billion pieces of forwarded
mail and 43.5 million change of address cards in 1997.1 Such volume creates formidable
obstacles in maintaining a high quality mailing list for customers that will be used for the
preparation of mailings.

The NCOA program makes change-of-address information available to USPS customers
who have name and address list that will be used for the preparation of mailing, to help
reduce undeliverable or duplicate mail pieces. In 1986, the Postal Service implemented
the NCOA program, which extends the Postal Service’s use of mail forwarding
information to update business mailers’ address lists.

Before introducing this program, business mailers were notified of change of address
information after their mail had been sent out and forwarded, returned, or discarded. The
USPS now confronts this problem before the mail piece enters the mail stream by using
licensees licensed by the Postal Service to provide commercial customers a mailing
correction service for lists used for the preparation of mail.


B. Approach

The approach taken was to first determine the full costs of the NCOA program, then
determine the revenues generated from the program, and finally to determine the related
benefits. Additionally, this is the first of two reports to be issued on the NCOA program.
The second report will assess the industry implications of including advertisements in the
Welcome Kits.


B.1. Costs of Running the NCOA program

In determining the costs of running the NCOA program, we conducted interviews of key
personnel, and reviewed the relevant cost data at the National Customer Support Center
in Memphis, TN. Based on our review, we concluded there were three main categories of
costs: direct costs, directly associated indirect costs, and indirect costs.

In calculating direct costs, we accumulated all costs that could be traced to the NCOA
program directly in an economically feasible way. An example of such costs would be

1
    Comprehensive Statement of Postal Operations 1997, Pg. 52

Grant Thornton LLP                                                                             1
     PERFORMANCE AUDIT OF THE USPS NATIONAL CHANGE OF ADDRESS PROGRAM


the costs of all direct salaries and wages, (including benefits) of the employees who
directly participate or support activities that can be traced directly to the NCOA program.
Directly associated indirect costs are the costs of the support departments that are
essential to the NCOA operations. An example of such costs would be the salaries and
wages (including benefits) of the employees maintaining the microcomputers that support
the NCOA program, but not in a directly traceable manner.

Moreover, indirect costs are those costs that could not be traced to the NCOA program in
an economically feasible manner. Such costs would be overhead costs that have to be
allocated to the NCOA program based on an estimated level (percent) of usage.
Examples of such costs would be rent and utilities.


B.2. Assigning and Allocating Costs to the Three Stated Categories

1.	 Direct costs were assigned to the NCOA program on a 100 percent basis.

2.	 Directly associated indirect costs were allocated to the NCOA program based on the
    level of resources consumed by the NCOA program. For instance, the costs of
    operating and maintaining the mainframes in the Technical Support Department was
    allocated to the NCOA program based on central processing unit seconds utilized.

3.	 Indirect costs were allocated to the NCOA program based on surveys we conducted.
    We calculated that the NCOA program consumed seven percent (weighted) of the
    Administrative Support Department resources. Therefore, we used this rate to
    allocate rent and other general overhead expenses, such as deprecations to the NCOA
    program.


B.3. Full Costing of the National Change of Address Program

Based on the concept of full costing, we were able to determine the full costs of operating
the NCOA program for fiscal year (FY) 1998. The costs by the three categories
mentioned earlier are as follows:

� Total estimated direct costs:                                          $1,044,597

� Total estimated directly associated indirect costs:                    $1,652, 817

� Total estimated indirect costs:                                          $318,502

� Full Costing                                                           $3,015,916




Grant Thornton LLP                                                                            2
      PERFORMANCE AUDIT OF THE USPS NATIONAL CHANGE OF ADDRESS PROGRAM


Our analysis disclosed that the NCOA program generated $1,918,521 in revenues from
its licensees in FY 1998. Therefore, the full costs of running the NCOA program
exceeded revenues generated in fiscal year 1998 by $1,097,395.

Based on the concept of marginal costing (i.e., direct costs + directly associated indirect
cost), the USPS revenues from its licensees would have exceeded the marginal costs of
running the NCOA program in FY 1998. It appears that the NCOA program managers
could have applied the concept of marginal costing when initially determining the prices
set for the service provided to the mailing community. We discussed revising this
paragraph for clarity during the outbrief any suggestions??????


B.4. Determining the Benefits of the NCOA program:

The simple concept of providing the mailing community with the opportunity to update
their mailing list prior to mail entering the mail stream allows the Postal Service to avoid
the rehandling costs associated with forwarding mail.

In order to quantify the benefits of the NCOA program we used an existing study
conducted by Price Waterhouse in 1995 (Volume, Characteristics, and Costs of
Processing Undeliverable-AS-Addressed Mail).

We applied a conservative approach in determining the benefits of the NCOA program.
We started with the costs to forward a single piece of mail. Since the costs to forward a
piece of mail in 1995 was $0.23162 , we started with this base cost and applied the
consumer price index for 1996, 1997, and 1998 to arrive at an estimated costs to forward
a piece of mail in 1998, $0.2472.

After calculating the estimated costs of forwarding a piece of mail in 1998, we multiplied
that by the number of addresses updated on mailers’ address lists as a result of the NCOA
program. The result would show the costs avoided by the USPS.

During fiscal year 1998, the NCOA licensees processed 109,634,114,940 addresses. Of
that total, 4,830,521,256 addresses were updated on mailers’ address list.

The calculation of benefits was based on the following assumptions:

� For every postal customer who moved and processed a change of address order the
  postal customer received one piece of mail during FY 1998 at their new address.

� Every address updated on a mailer’s address list resulted in a correctly addressed
  piece of mail.



2
 Price Waterhouse Report, Volume, Characteris tics, and Costs of Processing Undeliverable-AS-Addressed
Mail, Contract # 104230-91-H-H053, and Pg. 5-5.

Grant Thornton LLP                                                                                       3
                   PERFORMANCE AUDIT OF THE USPS NATIONAL CHANGE OF ADDRESS PROGRAM


         � For the 4,830,521,256 addresses updated on mailers’ address lists in FY 1998, the
           USPS avoided the costs of forwarding mail to the new addresses.

         During FY 1998 the Postal Service was able to avoid $1,194 billiong in rehandling costs
         associated with forwarding mail.


         C. 	Graphical Analysis, Change of Address Records Processed, and the
             Match Rate for Records Processed, 1987 – 1998

         During the period 1987 to1998, over five hundred billion mailers’ addresses were
         processed by NCOA. Of that total more than twenty-one billion addresses were updated
         on multiple mailers’ address lists, therefore reducing the amount of mail needing to be
         forwarded by the USPS.

         Our analysis disclosed that the number of records processed by the NCOA licensees as a
         result of the NCOA program, and the number matched has been steadily increasing over
         the last ten years, as depicted in graph #1 and # 2.


                               Records Processed, 1987 - 1998	                                                    Records Matched, 1987 -1998

                                                                                    5,000,000,000

100,000,000,000

                                                                                    4,000,000,000
 80,000,000,000


                                                                                    3,000,000,000
 60,000,000,000


                                                                                    2,000,000,000
 40,000,000,000



                                                                                    1,000,000,000
 20,000,000,000



           -                                                                                   0
                  1987 1988 1989 1990 1991 1992 1 9 9 3 1994 1995 1996 1997 1998	                   1987 1988 1989 1990 1991 1992 1993 1994 1995 1996 1997 1998

         Graph # 1	                                                                     Graph # 2




         D. 	Conclusions

         Based on our analysis, it appears that under marginal costing the USPS NCOA program
         revenues exceeded expenses for FY 1998. However, under full costing, the estimated
         costs of the NCOA program for FY 1998 exceeded the revenues generated by
         $1,097,395.

         However, the rehandling costs avoided by the USPS in FY 1998 as a result of not having
         to forward mail when individuals, families, and businesses move was estimated at
         $1,194,119,153. Therefore, the benefits of the NCOA program far outweigh the net costs
         (excess of expenses over revenues) of the NCOA program in FY 1998.

         Grant Thornton LLP                                                                                                                          4
     PERFORMANCE AUDIT OF THE USPS NATIONAL CHANGE OF ADDRESS PROGRAM




E. Recommendation

We recommend the Manager, Address Management, use full costing to establish rates
NCOA licensees pay to receive NCOA service if the goal of the NCOA program
management is to recover the full costs of the service they provide to the licensees.

F. Management Comments
The Vice President of Operations Planning concurred with the finding and the
recommendation and provided a plan to implement the recommendation. See Appendix
I. The plan indicates that adjustments to the annual licensing fee will increase during
years 2000 and 2001. In addition, they will continu to monitor the annual license fees
and adjust based on full-costing.

G. Evaluation of Management Comments
Management’s comments were responsive to the issue raised in this report.




Grant Thornton LLP                                                                        5
     PERFORMANCE AUDIT OF THE USPS NATIONAL CHANGE OF ADDRESS PROGRAM




Grant Thornton LLP                                                          6
                                                                   Appendix I
